<html>
<title> - FAST 41 AND THE FEDERAL PERMITTING IMPROVEMENT STEERING COUNCIL: PROGRESS TO DATE AND NEXT STEPS</title>
<body><pre>[Senate Hearing 115-334]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-334
 
                   FAST	41 AND THE FEDERAL PERMITTING
     IMPROVEMENT STEERING COUNCIL: PROGRESS TO DATE AND NEXT STEPS

=======================================================================

                               ROUNDTABLE

                               before the

                PERMANENT SUBCOMMITTEE ON INVESTIGATIONS

                                 of the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             SECOND SESSION

                               __________

                             JUNE 27, 2018

                               __________

         Available via the World Wide Web: http://www.fdsys.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
        
        
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          
                           _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
31-410 PDF              WASHINGTON : 2018      
       
        
        
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 CLAIRE McCASKILL, Missouri
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  HEIDI HEITKAMP, North Dakota
JAMES LANKFORD, Oklahoma             GARY C. PETERS, Michigan
MICHAEL B. ENZI, Wyoming             MAGGIE HASSAN, New Hampshire
JOHN HOEVEN, North Dakota            KAMALA D. HARRIS, California
STEVE DAINES, Montana                DOUG JONES, Alabama

                  Christopher R. Hixon, Staff Director
               Margaret E. Daum, Minority Staff Director
                     Laura W. Kilbride, Chief Clerk
                    Bonni Dinerstein, Hearing Clerk


                PERMANENT SUBCOMMITTEE ON INVESTIGATIONS

                       ROB PORTMAN, Ohio Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  HEIDI HEITKAMP, North Dakota
JAMES LANKFORD, Oklahoma             GARY C. PETERS, Michigan
STEVE DAINES, Montana                MAGGIE HASSAN, New Hampshire

            Andrew Dockham, Staff Director and Chief Counsel
                John Kilvington, Minority Staff Director
                      Kate Kielceski, Chief Clerk
                      
                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Portman..............................................     1
    Senator McCaskill............................................     3
    Senator Harris...............................................    24
Prepared statement:
    Senator Portman..............................................    33

                               WITNESSES
                        Wednesday, June 27, 2018

Alexander Herrgott, Associate Director for Infrastructure, 
  Council on Environmental Quality...............................     4
Angela Colamaria, Acting Executive Director, Federal Permitting 
  Improvement Steering Council...................................     7
Joseph Johnson, Ph.D., Executive Director, Federal Regulatory 
  Process Review and Analysis, Environment, Technology, and 
  Regulatory Affairs, U.S. Chamber of Commerce...................     9
Christy Goldfuss, Senior Vice President, Energy and Environment 
  Policy, Center for American Progress...........................    10
Sean McGarvey, President, North America's Building Trades Union..    12
Hon. Mary L. Landrieu, Senior Policy Advisor, Van Ness Feldman, 
  LLP; Accompanied by Megan K. Terrell, Legal Advisor, Coastal 
  Activities, Environment and Natural Resources Office of the 
  Governor of Louisiana..........................................    14
Jolene S. Thompson, Executive Vice President, Member Services and 
  External Affairs, American Municipal Power, Inc................    16

                     Alphabetical List of Witnesses

Colamaria, Angela:
    Testimony....................................................     7
    Prepared statement...........................................    38
Goldfuss, Christy:
    Testimony....................................................    10
    Prepared statement...........................................    47
Herrgott, Alexander:
    Testimony....................................................     4
    Prepared statement...........................................    35
Johnson, Joseph, Ph.D.:
    Testimony....................................................     9
    Prepared statement...........................................    42
Landrieu, Hon. Mary L.:
    Testimony....................................................    14
    Prepared statement...........................................    56
McGarvey, Sean:
    Testimony....................................................    12
    Prepared statement...........................................    51
Thompson, Jolene:
    Testimony....................................................    16
    Prepared statement...........................................    59

                                APPENDIX

Statements submitted for the Record from:
    Marc S. Gerken, PE, CEO/President, American Municipal Power, 
      Inc........................................................    77
    Coastal Protection and Restoration Authority.................    93
Responses to post-hearing questions for the Record from:
    Ms. Colamaria................................................   103


                     ROUNDTABLE ON FAST-41 AND THE

                     FEDERAL PERMITTING IMPROVEMENT

           STEERING COUNCIL: PROGRESS TO DATE AND NEXT STEPS

                              ----------                              


                        WEDNESDAY, JUNE 27, 2018

                                   U.S. Senate,    
              Permanent Subcommittee on Investigations,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:34 p.m., in 
room 106, Dirksen Senate Office Building, Hon. Rob Portman 
presiding.
    Present: Senators Portman, McCaskill, Peters, and Harris.

            OPENING STATEMENT OF SENATOR PORTMAN\1\

    Senator Portman. All right, we are going to get going.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Portman appears in the 
Appendix on page 33.
---------------------------------------------------------------------------
    Senator McCaskill I know has three things going on at once, 
as do all of us, and yet we have something really important to 
talk about today so we are delighted you are here. We may have 
other colleagues who come in and out. Everybody is busy today. 
It is kind of crazy. I guess I need to do this.
    [Pounds gavel.]
    I just love doing that.
    First of all, you know why we are here. We are here to talk 
about Federal permitting, and this is, I think, a great story, 
what we have accomplished so far with very little resources, 
too little in my view, and with a permanent executive director. 
I think the Obama Administration was slow to get it started. I 
think the Trump Administration has not been aggressive enough 
in permitting a permitting reform executive director to be 
permanent. I think Congress has not provided adequate funding. 
But notwithstanding all that, we have made real progress and we 
are going to continue to do so.
    This issue affects everything. It affects the roads we 
drive, the bridges we cross, the airports we use, the 
infrastructure projects, including environmental projects, 
which we will hear about today, that are important, and the 
electricity that we use. It is all about infrastructure.
    Right now the system, as we have heard from our 
constituents constantly, takes too long. It is complicated, 
sometimes very bureaucratic. Those delays have real costs. They 
have costs in terms of money, in terms of jobs, in terms of 
safety, in terms of the ability for the private sector to 
invest as well as the public sector, and often it is a matching 
investment. It is an opportunity to say as we improve 
infrastructure and maybe do something exciting later this year 
on legislation, let us be sure that the permitting part of this 
is fixed. That way the Federal dollar will go even further 
toward doing what everybody wants to do, I hope, to create more 
jobs and more economic activity through better infrastructure.
    Five years ago, actually, probably 7 years ago, Senator 
McCaskill and I started in on this project, and about 2\1/2\ 
years ago we passed legislation. That was in 2015, and it is 
called Fixing America's Surface Transportation (FAST-41), 
because it was part of the FAST Act, Title 41. FAST-41 tries to 
streamline the permitting process and it focuses on the largest 
infrastructure projects. We call them covered projects. For 
those listening today, when we talk about covered projects, 
those are ones that, under FAST-41, are included.
    We also created the Federal Permitting Improvement Steering 
Council (FPISC). We will hear a lot about the Council today, 
bringing all the permitting agencies together at the start of 
covered projects to coordinate and streamline the permitting 
process. I think we will hear some good things today about 
that, but also the need, again, for more resources.
    The law has a number of common-sense measures, encourages 
agencies to do their reviews concurrently rather than 
sequentially. That always seemed like a no-brainer to us. Let 
us not finish one of maybe a couple dozen regulatory reviews 
and then have to go to the next and the next. Let us try to do 
them together.
    It also requires one agency to be the lead agency. Common 
sense, this provides for some accountability, so that there is 
some responsibility built into the system. It also requires 
agencies to post a timeline on a public online dashboard so 
that project sponsors and the public can keep track of where 
they are in the permitting process, another common-sense 
measure that is making a big difference in my view, with these 
covered projects.
    When we first came up with this idea, and I think Senator 
McCaskill would agree with this, we had hoped it would save 
money, both by project sponsors and government, and save time. 
Based on the testimony we are going to hear today, I think it 
is safe to say that much of what we had hoped for has happened. 
Expectations have been met in the sense that there have been 
some significant savings in time and money. Over the past year 
and a half, the Council informs me that they have saved 
projects $1 billion in avoided costs. That is a pretty good 
start, $1 billion. We will hear more about that through your 
testimony. And we have done this without a permanent executive 
director and with a bare minimum of funding.
    I do want to take a moment to offer Acting Executive 
Director Angie Colamaria, who is with us here today at the 
panel, former Acting Executive Director and current Deputy 
Director Janet Pfleeger, who is here, and your whole team, our 
sincere thanks. You pulled together groups. I have had a chance 
to speak with the Council and seen your work first-hand.
    We need a permanent executive director. I hope that will 
happen soon. We will also continue to advocate for funding for 
the Council that is adequate to be able to have enough 
infrastructure within the Council to get infrastructure moving.
    Based on our experience of the past 2\1/2\ years, and 
listening to you all and talking to outside stakeholders, 
Senator McCaskill and I have now introduced follow-on 
legislation. It is called S. 3017. It is the Federal Permitting 
Reform and Jobs Act. The whole idea is to improve FAST-41 and 
learn the lessons, what worked, what did not work, and how we 
can make it work better.
    Most critically to me, the bill would remove the 7-year 
sunset in FAST-41. We know enough about it now to know that we 
should not be sunsetting this in 7 years. We should keep it 
going. It would also allow more projects to apply to be 
covered. I think that is important, including some areas like 
transportation and energy. You definitely want to be covered.
    It would set a 2-year goal for each project's permitting 
process. By the way, if agencies determine they will need 
longer to permit a project they can explain why and what they 
are going to do to mitigate those delays. I think that 2-year 
goal is really important. The bill will allow the Permitting 
Council to consult on non-covered projects as well, to take 
your expertise and be able to use it for non-covered projects, 
if asked, and to help resolve conflicts.
    These are modest, smart, common-sense reforms that will 
build on the success we are already seeing. We are looking 
forward to hearing from each of the roundtable participants 
today about FAST-41's performance so far, what you think has 
worked, what has not worked, and where we can improve the 
permitting process going forward.
    With that I would turn to my former Ranking Member on the 
Subcommittee and co-author, Senator McCaskill.

             OPENING STATEMENT OF SENATOR McCASKILL

    Senator McCaskill. Thank you, Senator Portman. We have been 
working on this for a long time but things do not happen around 
here quickly. Good ideas have a way of latching on, and this is 
a good idea. This is an idea that is going to make a difference 
in terms of saving taxpayers money. It is going to make a 
difference in terms of being able to get infrastructure in 
place in a way that saves local jurisdictions money and saves 
money for the companies that are willing to invest in some of 
these infrastructure projects. It is a win-win all the way 
around.
    I am disappointed, along with my colleague, that we do not 
have a permanent executive director. I am disappointed, since 
we have already saved $1 billion, that the President's budget 
only allocated $1 million for the Council when we know the 
requirements to do it right would take about $10 million. That 
is a small amount. If they have managed to already save $1 
billion, the potential is huge in terms of the amount of money 
that could be saved if this works the way it is supposed to 
work.
    I think my friend from Ohio will be more persuasive with 
this Administration than I will be. But we have played tag team 
before, we have handed the baton back and forth, and that is 
what it means to work in a bipartisan way. I am hopeful that we 
can continue to do that and get our new bill through, which 
will make improvements. But most importantly, make this work as 
robustly as it has the potential to work, in terms of saving 
money and putting some common sense into the public sector that 
would match the desires of the private sector when they are 
more driven by a bottom line.
    Thank you and I will look forward to our conversations and 
the information that we get here today.
    Senator Portman. Excellent. Senator Peters, who was just 
here, had to leave, may come back, and other Senators may come 
and go and we are going to be informal here so allow them to 
interject when they come in.
    We are going to hear from our participants now. Let me 
introduce them briefly.
    Alexander Herrgott currently serves as the Associate 
Director for Infrastructure on the Council on Environmental 
Quality (CEQ). Angela Colamaria, I already mentioned, currently 
serves as Acting Executive Director of the Federal Permitting 
Improvement Council. Joe Johnson is the Executive Director of 
Federal Regulatory Process Review and Analysis for Environment, 
Technology, and Regulatory Affairs--fit that on a business 
card--at the U.S. Chamber of Commerce. Christy Goldfuss is the 
Senior Vice President for Energy and Environment Policy at the 
Center for American Progress. Sean McGarvey is the President of 
North America's Building Trades Union.
    Our former colleague, Senator Landrieu, is here. She 
currently serves as Senior Policy Advisor at Van Ness Feldman. 
I understand that Megan Terrell, Legal Advisor to Louisiana 
Governor John Bel Edwards on Coastal Activities, Environment, 
and Natural Resources is also on hand. Thank you for being 
here, Megan, to answer questions about the project.
    Finally, last but not least, we have Jolene Thompson, who 
is the Executive Vice President of Member Services and External 
Affairs for the American Municipal Power (AMP), Inc., which is 
the sponsor of the R.C. Byrd hydropower project in Ohio. 
Actually, it was American Municipal Power that first came to 
me, probably 8 years ago, about this permitting problem, and 
the difficulty of getting private investment, because the 
capital is not that patient. Investors were going somewhere 
else because their permitting was taking so long. We look 
forward to hearing how things are going and what you think 
about it.
    Mr. Herrgott, we will hear from you first. We are going to 
try to keep these to 5 minutes on the timer.

  TESTIMONY OF ALEXANDER HERRGOTT,\1\ ASSOCIATE DIRECTOR FOR 
        INFRASTRUCTURE, COUNCIL ON ENVIRONMENTAL QUALITY

    Mr. Herrgott. Before I begin, if you will permit me a small 
sentimental moment. In 2015, when I was senior staff for 
Senator Inhofe negotiating the FAST Act, my father, 
unfortunately, passed away, and I rushed back to Arizona. Two 
days later Senator Boxer called me and said, ``Would you please 
come back to the Hill'' because the bill had been hung up on 
our streamlining negotiations. Right outside this room, Senator 
Boxer gave me a hug, as we walked back in with Senate staff, 
and she said, ``Get back to work.'' I think that spirit of 
bipartisanship is something that Senator McCaskill and you, 
Senator Portman, have exemplified is 
something that we need to remember when we are talking about 
FAST-41 and the streamlining initiatives that the President has 
engaged in, because once we inject facts into this debate we 
can make pragmatic successes together.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Herrgott appears in the Appendix 
on page 35.
---------------------------------------------------------------------------
    Thank you for having this hearing because I think it is an 
opportunity for us to show the world how we can actually turn a 
light on a process that previously has been somewhat of a black 
box.
    Senator Portman, Ranking Member McCaskill, thank you for 
the invitation to discuss the Federal permitting process for 
major infrastructure projects. I am looking forward to having a 
meaningful dialogue on the topic today as we work toward a 
shared goal of reducing permitting delays, providing the 
American people the modernized infrastructure they deserve.
    As you know, a major cause of delay in the permitting 
process for major infrastructure projects is that there are too 
many decisionmakers without effective cross-agency coordination 
or communication. Multiple Federal agencies oversee dozens of 
Federal statutes that project sponsors must navigate before 
beginning construction. Over time, this has created a redundant 
and often inconsistent Federal permitting process with no 
single framework and no varying times.
    We can do better. By looking at the chart behind me, you 
can see that you need a Ph.D. or you need to hire a consultant 
to navigate the 29 statutes and 5 Executive Orders (EO) that 
dictate a process just to build a highway project. For example, 
a highway project could use as many as 10 different Federal 
agencies involved in 16 different permitting decisions, in 
addition to the State, local, and tribal permitting schedules.
    The result is a Federal permitting process that often takes 
too long, increases costs, and creates uncertainty. The 
Administration is actively trying to fix this problem by 
addressing the challenges while maintaining environmental 
protections.
    With process enhancements and common-sense, harmonized 
approaches among the Federal agencies, infrastructure projects 
will move through the environmental permitting process more 
efficiently. Federal agency coordination is imperative to long-
term process reforms throughout the agencies.
    That is why, last August, President Trump signed Executive 
Order 13807, implementing a policy we have referred to as ``One 
Federal Decision.'' Under this policy, Federal agencies will 
administer the National Environmental Policy Act (NEPA) 
procedures so that a single Environmental Impact Statement 
(EIS) and a single Record of Decision (ROD) and that for all 
applicable permitting decisions it will conduct it concurrently 
with the NEPA process. One Federal Decision also provides that 
Federal agencies will seek to complete the environmental review 
process within an average of 2 years.
    In April, President Trump announced that 11 Federal 
agencies and the Permitting Council signed a Memorandum of 
Understanding (MOU) where agencies agreed to an unprecedented 
level of coordination and communication in conducting their 
environmental reviews. Under this MOU, CEQ, in coordination 
with other White House components, has convened a Federal 
agency working group to develop the framework under which the 
Permitting Council and other agencies will implement this 
Executive Order. The agencies are working together to identify 
the appropriate level of analysis needed to conduct the 
necessary environmental reviews, synchronize the public 
engagement, and complete the other procedural steps to ensure 
that all necessary decisions are made within the timelines 
established by the Executive Order.
    Since the agencies signed the MOU, CEQ and agency 
leadership have been coordinating extensively on agency 
streamlining efforts to identify and implement policy process 
and regulatory changes.
    Some significant steps have already been taken. For 
example, the Federal Highway Administration signed an agreement 
with the Fish and Wildlife Service (FWS), the U.S. Army Corps 
of Engineers (USACE), the Environmental Protection Agency 
(EPA), the Coast Guard, and the National Oceanic and 
Atmospheric Administration (NOAA), coordinating agencies' 
processes and committing to working together to achieve the 
goals of the Executive Order, something that seemed so simple 
but something that previously had been so complicated.
    Additionally, the Secretary of Interior issued a 
Secretarial Order and additional guidance that advanced the 
department's NEPA streamlining efforts within the Executive 
Order.
    Next, the Army Corps of Engineers issued a Section 408 
policy change adopting other agencies' NEPA documents and 
issued a policy to improve coordination and risk management 
among the Federal family. This is not rocket science.
    Many agencies are expanding the use of time-saving, 
programmatic consultation, improving internal clearance 
processes along with increasing agency capacity for staffing 
projects.
    Moving forward, agencies will be issuing directives and 
conducting training with all levels of organizations, from 
headquarters down to the field offices, which we all know is 
some of the most important activity, to ensure that timetables 
and plans to implement One Federal Decision are done 
nationwide. And the Office of Management and Budget (OMB) and 
CEQ, in collaboration with agencies, are implementing a 
performance accountability system to ensure agencies meet the 
permitting timetables.
    While CEQ is focused on the development of a better process 
for all infrastructure project permitting, the Permitting 
Council is focused on overcoming obstacles on a project-by-
project basis. Ms. Colamaria will expand further on the 
implementation of FAST-41 and the Permitting Council's role in 
streamlining the Federal permitting process.
    As a result of One Federal Decision, and the work of the 
Permitting Council, Federal environmental review and permitting 
processes will be streamlined, more transparent, and, most 
importantly, more predictable. Our goal is to give the American 
people the process they deserve and not the process they have.
    We are looking forward to continuing to work together with 
you on advancing One Federal Decision. Thank you again for the 
invitation, and I look forward to the discussion.
    Senator Portman. Thank you, Mr. Herrgott.
    We will now hear from Ms. Colamaria.

 TESTIMONY OF ANGELA COLAMARIA,\1\ ACTING EXECUTIVE DIRECTOR, 
        FEDERAL PERMITTING IMPROVEMENT STEERING COUNCIL

    Ms. Colamaria. Thank you. Senator Portman, Senator 
McCaskill, thank you for this opportunity to speak to you today 
about our progress in improving the Federal permitting process 
for infrastructure projects.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Colamaria appears in the Appendix 
on page 38.
---------------------------------------------------------------------------
    Throughout my career, I have participated in the Federal 
permitting process from various perspectives. As an attorney, I 
represented project sponsors who were trying to build new 
projects. I worked within a permitting agency where I oversaw 
the NEPA review for infrastructure projects. I am currently 
leading a working group tasked with improving the Federal 
permitting process across all agencies. And after FAST-41 was 
passed in December 2015, I helped lead the Administration's 
efforts to set up the Council and the new governance system and 
to provide guidance to agencies as we started to implement 
FAST-41.
    FAST-41 codifies many of the best practices that experts 
identify as essential to creating the sea change needed to 
overall process improvements for the Federal permitting 
process. This is all to say I believe in the principles of 
FAST-41 and it is my priority to ensure it is a success.
    Today I want to describe some of the project-specific 
successes we have been able to achieve so far, using the tools 
provided by FAST-41. We have accomplished this in three main 
ways: breaking down silos through enhanced coordination, 
ensuring efficiency in the permitting process, and providing 
oversight and issue resolution. As Senator Portman mentioned, 
these efforts already have resulted in saving FAST-41 projects 
over $1 billion in costs through avoided permitting process 
delays.
    I would first like to point to our efforts to break down 
silos across government to create a more standardized, 
predictable permitting process. The enhanced interagency 
coordination that supports our ability to identify and resolve 
potential impediments to the permitting process are led by 
deputy secretary-level Council members as well as agency chief 
environmental review and permitting officers (CERPOs).
    My office has established regular in-person meetings to 
bring these CERPOs together and appropriate staff for in-depth 
conversations on specific FAST-41 projects. These meetings 
allow interagency discussion and identification of potential 
delays so that they can be resolved early in the process.
    To my second point, ensuring efficiency in the permitting 
process, my office ensures agencies work together to ensure 
each FAST-41 project has a permitting schedule that is 
optimized. For example, my office serves as a communication 
bridge to connect personnel at all levels of the government 
with staff and subject matter expertise, both within an agency 
and then across agencies, to identify and resolve project 
issues.
    My third point on oversight and issue resolution, my office 
uses FAST-41 tools, including the Coordinated Project Plans 
(CPPs), the publicly available permitting dashboard, agency 
representatives, and that is both at the working group level, 
the CERPO level, and the Council level, and the provisions 
limiting modifications to permitting timetables, all to ensure 
that each FAST-41 project receives the most efficient and 
effective permitting process possible.
    I would like to share just three examples of our work this 
year in keeping projects on schedule and on track. The first 
success story is our effort to facilitate cooperation among 
agencies involved in the Nexus Gas Transmission Line, to ensure 
an efficient and timely 106 review under the National Historic 
Preservation Act. The resulting coordination among agencies 
allowed subsequent authorizations to move forward and saved an 
estimated 6 months and $300 million in capital costs to the 
project.
    The second success story results from my office's oversight 
role leading to the successful drafting and implementation of a 
Programmatic Agreement for the 106 review for two FAST-41 
projects. Our actions supported the Advisory Council on 
Historic Preservation in facilitating issue resolution with 
three different Federal agencies and the States that were 
involved in that project. For one of those projects, the 
Atlantic Coast Pipeline, the completion of the Programmatic 
Agreement allowed other Federal permitting actions to proceed 
forward, which then allowed the project sponsor to use that 
year's tree-clearing window for construction. That avoided a 1-
year delay for that project.
    The final success story is an example of an effective 
Federal-State coordination in the Mid-Barataria Sediment 
Diversion (MBSD) Project. I will not say a lot about that 
because I know we have distinguished speakers that are going to 
talk about that some more. But the project created the first 
FAST-41 MOU, which established clear roles and responsibilities 
for not just the Federal agencies but also the State agencies 
involved in that project. To address complex issues related to 
NEPA implementation, our office worked with CEQ to provide 
subject matter expertise to the agencies to help them identify 
the next steps for that project. These actions resulted in a 
reduction in the current permitting schedule by nearly 2 years 
for this project.
    In summary, I look forward to building on the $1 billion in 
avoided permitting delays as we work to fully implement the 
potential of FAST-41, while maintaining important environmental 
protections.
    Thank you.
    Senator Portman. Great. Thank you. Dr. Johnson.

  TESTIMONY OF JOSEPH JOHNSON, PH.D.,\1\ EXECUTIVE DIRECTOR, 
 FEDERAL REGULATORY PROCESS REVIEW AND ANALYSIS, ENVIRONMENT, 
  TECHNOLOGY, AND REGULATORY AFFAIRS, U.S. CHAMBER OF COMMERCE

    Mr. Johnson. Thank you. Good afternoon, Senator Portman, 
Ranking Member McCaskill. The U.S. Chamber of Commerce has been 
involved in permit streamlining for a long time. The Chamber 
greatly appreciates this Committee's interest in Federal permit 
streamlining and the work the Committee did in the 114th 
Congress that led to passage of Title 41 in the Fixing 
America's Surface Transportation Act.
---------------------------------------------------------------------------
    \1-\ The prepared statement of Mr. Johnson appears in the Appendix 
on page 42.
---------------------------------------------------------------------------
    My statement today details the Chamber's strong support for 
the Federal permit streamlining provisions in FAST-41, our 
members' experience with it since passage, and our continued 
support for next steps to improve the permitting process in S. 
3017, the Federal Permitting Reform and Jobs Act.
    FAST-41 actually did a lot. It established the multi-agency 
Federal Permitting Improvement Steering Council and it 
established a process that includes designation of lead agency, 
timetables for projects, coordination between agencies, dispute 
resolution mechanisms, and judicial review reforms.
    One example of the benefits of FAST-41 is the transparency 
and certainty generated by the permitting timetable. Simply 
put, our members find this feature indispensable. Knowing an 
expected schedule for all the steps in the permitting process 
from the beginning allows project sponsors to better coordinate 
and manage scheduling of contractors, suppliers, and resource 
needs.
    Simply by reducing the uncertainty of permitting through 
the timetable, coupled with the other provisions to keep this 
process on track, our members who work on covered projects, 
including those all along the supply chain, not only project 
sponsors, are better able to manage resources, reduce down time 
and waste, and manage workflows to get more done, hire more 
employees, and help grow the economy.
    With the Council recently reporting that 97 percent of 
covered projects had timetables in their 2017 annual report, we 
are near full implementation on covered projects across all 
agencies. This is a significant step forward.
    Not surprisingly, Chamber members are also highly 
supportive of speeding up the permitting process. The Council 
recently reported that they were able to reduce the permitting 
timetable on the Mid-Barataria project by 22 months. I am not 
the expert here on that project. I will not go into details but 
this is a significant step. 
It is only one case study but it is a positive indication that 
the FAST-41 process works and that we should expect to see more 
benefits from reductions in permitting timetables in the near 
future. It has only been 2\1/2\ years since implementation 
began and we are already beginning to see massive payoffs in 
terms of projects scheduling reductions.
    An important next step is further improving the permitting 
process and increasing the number of covered projects. To that 
end, the Chamber strongly supports S. 3017, the Federal 
Permitting Reform and Jobs Act. The bill does four crucial 
things-eliminating the 7-year sunset in FAST-41, by far the 
most important. This will ensure that FAST-41 continues into 
the future and serves as the foundation for additional future 
permitting reforms.
    Two, it expands the statutory definition of covered 
projects. By removing exclusions in FAST-41, more 
transportation infrastructure projects will become eligible. 
This is crucial for modernizing America's infrastructure moving 
forward.
    Three, it sets a 2-year goal for permitting covered 
projects, by requiring agencies to submit a plan that adheres 
to this timetable. An expected 2-year permitting schedule is a 
powerful incentive to increase investment in covered projects. 
The Chamber firmly believes there is no good reason why any 
Federal permit should ever take longer than 2 years to obtain.
    And four, it expands the Council's consulting authority by 
codifying provisions of EO 13807, which grants the Council 
enhanced consultation authority and expands the Council's 
dispute resolution authority, allowing for it to better 
coordinate agency actions and keep the process on schedule to 
further reduce project timetables.
    In conclusion, the Chamber applauds the work that has been 
done to implement FAST-41 so successfully and expediently, and 
strongly supports passage of S. 3017. Early successes have 
shown that the FAST-41 process works. Enhancing the system with 
the common-sense improvements in S. 3017 will allow a broader 
range of projects to take advantage of improvements in the 
permitting process and ensure that this process continues to be 
refined without the clock running out on FAST-41.
    In January 2018, the Chamber laid out a four-point plan to 
modernize American's infrastructure, of which enhancing the 
usage rate and effectiveness of FAST-41 is one of the four key 
components.
    We look forward to working with this Committee to ensure 
that we have the necessary tools to modernize America's 
infrastructure moving forward. Thank you.
    Senator Portman. Thank you, Dr. Johnson. Ms. Goldfuss.

TESTIMONY OF CHRISTY GOLDFUSS,\1\ SENIOR VICE PRESIDENT, ENERGY 
      AND ENVIRONMENT POLICY, CENTER FOR AMERICAN PROGRESS

    Ms. Goldfuss. Thank you. Thank you for having me today, 
Senators Portman and McCaskill.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Goldfuss appears in the Appendix 
on page 47.
---------------------------------------------------------------------------
    What we are talking about today, as you two know very well, 
is not and should not be politically divisive. Both Republicans 
and Democrats have sought to improve the process by which the 
government permits major infrastructure projects. As Managing 
Director at the Council on Environmental Quality under 
President Obama, I worked closely with my colleagues at OMB and 
the National Economic Council (NEC), at the time, to implement 
the FAST Act by standing up the Permitting Council, writing its 
inaugural guidance, and staffing it with talented people, some 
who are in this room still, who knew how to move the levers of 
government to overcome barriers.
    Prior to being at CEQ, I was Deputy Director at the 
National Park Service (NPS), which gave me a front-row seat to 
a lot of the interagency conflicts and disputes that can lead 
to the delays. Both at the White House and at NPS, I saw first-
hand the need to coordinate agencies, establish milestones, and 
create transparency so that environmental review can be 
improved where necessary and, quite honestly, not blamed for 
the burdens of a complicated network of public and private 
requirements. That is why I supported the creation of FPISC and 
all the other permitting reforms when some of my other 
colleagues did not.
    Through the Title 41 and FAST Act and other recent actions, 
Congress has done a lot to give the Federal Government the 
tools to modernize the way it does business. However, those 
tested measures only work if the government uses them and 
builds trust with industry to demonstrate that this model can 
work in the complex government structure. Unfortunately, the 
Administration has pushed Congress to expand its authority 
rather than effectively exercising all the tools you have 
already given them. As a result, I have reservations and 
concerns about amending the Act without more proof points from 
the implementation of existing authorities.
    The Administration and others point to the permitting 
process as the main cause of project delays. Existing data 
show, however, that delays are more often the result of a lack 
of funding. Recognizing the need for further study and causes 
of project delays, the Congress gave the U.S. Department of 
Transportation (DOT) the permitting dashboard, which is still 
very much a work in progress, with incomplete data and limited 
mapping capabilities. It has significant potential but we are 
not there yet.
    While we were pleased to see an acting director announced, 
the FPISC executive director position is still vacant. A 
political appointee is particularly important in this role to 
demonstrate to departments and agencies the level of priority 
and commitment from the White House. The same is true for 
project sponsors who may question the legitimacy of FPISC 
without political leadership. This person would have broad 
authority to advance the group's mission and move large 
projects forward.
    Most importantly, though, the FAST Act allowed FPISC to 
establish a fee structure for project proponents. The FPISC has 
not yet implemented this initiative, which would help 
facilitate faster reviews at the expense of project sponsors, 
in this case private developers. These additional funds will 
improve the process and perhaps allow for other funds to be 
invested in the dashboard or other important measures. The 
Administration has failed to use the basic tools of governing 
that have been proven to improve permitting times.
    When the Committee, or if the Committee chooses to advance 
other legislation to enact more permitting reforms, I would 
like to offer a few recommendations.
    First, the FAST Act, the Water Resources Reform and 
Development Act (WRRDA), and the Moving Ahead for Progress in 
the 21st Century Act (MAP-21) all contained permitting reforms 
and changes to environmental review that need to be harmonized 
to make clear which authorities apply to which projects.
    Next, given the slow implementation pace, it would be 
prudent to keep a sunset date for provisions of FAST-41 that 
have not yet been implemented, such as advancing a preferred 
alternative or judicial review.
    Last, I strongly recommend against any consideration of 
legislated deadlines. Little can be gained by forcing under-
resourced agencies to develop the projects faster. This will 
only lead to more court battles and additional stops and starts 
in permitting timelines as agencies rush reviews and 
communities are cut out of the process. Instead, thorough 
implementation of FAST-41 and other permitting reforms will net 
excellent data for the Committee to truly diagnose any 
additional problems in process and procedure.
    In conclusion, I thank you again for inviting me to speak 
to you about this top priority issue for all of us, which is 
addressing the needs of the Nation's crumbling infrastructure 
while protecting the air, water, and wildlife on which we all 
depend. Thank you.
    Senator Portman. Thank you, Ms. Goldfuss. Mr. McGarvey.

   TESTIMONY OF SEAN McGARVEY,\1\ PRESIDENT, NORTH AMERICA'S 
                     BUILDING TRADES UNION

    Mr. McGarvey. Good afternoon, Senator Portman, Senator 
McCaskill. Thank you both for your leadership on this issue and 
for convening this Roundtable to discuss permitting reform. As 
President of North America's Building Trades Union (NABTU) and 
on behalf of the three million construction workers in North 
America that I proudly represent, thank you for allowing me to 
join this distinguished panel to discuss an issue that directly 
impacts the building and construction trades men and women 
across the Nation.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. McGarvey appears in the Appendix 
on page 51.
---------------------------------------------------------------------------
    Before we begin I would like to take a very brief moment to 
make a few comments.
    America's labor leaders and businesses agree: the 
permitting process for major U.S. infrastructure projects must 
continually be modernized to ensure efficiency, safety, 
accountability, and transparency. These projects employ 
hundreds of thousands of building trades members, and the 
sooner projects can break ground, the sooner our members can 
get to work applying their crafts and providing for their 
families.
    The general problem with the permitting process is this: 
project owners in the public and private sectors often confront 
an overly complex, slow, and inconsistent Federal permitting 
process. Gaining approval for a new bridge or factory typically 
involves negotiating a maze of review by multiple Federal 
agencies with overlapping jurisdictions and no real deadlines. 
Usually, no single Federal entity is responsible for managing 
the process. Even after a project has cleared extensive review 
and a permit is granted, lawsuits and judicial intervention can 
stymie effective approval for years, or even worse, halt a 
half-completed construction project in its tracks. This problem 
still needs more attention.
    Senators, your bipartisan work and leadership on the 
Federal Permitting Improvement Act, which we were proud to 
support through several sessions of Congress, demonstrated a 
steadfast commitment to cutting red tape in order to get much 
needed infrastructure projects moving forward. NABTU, and the 
entire building trades community, was tremendously grateful 
that these efforts were finally enacted and resulted in Title 
41 of the FAST Act. Already, Title 41 has started to streamline 
the Federal permitting process, providing new hope for 
construction workers, project owners, and industry leaders 
across the country that our system can be transparent and 
efficient.
    The reforms instituted in FAST-41 were designed to take 
steps to rectify the problem. We believe the creation of the 
Federal Permitting Improvement Steering Council was a long-
overdue step in the right direction. We are confident that the 
new procedures set forth in FAST-41 to standardize interagency 
coordination and consultation will ultimately lead us toward 
the better coordination among agencies and deadline-setting 
that has been lacking in the permitting process and frustrating 
construction owners, contractors, and workers for years.
    As an organization that relies upon standards, we welcome 
this. Furthermore, by tightening litigation timeframes 
surrounding some permitting decisions, major infrastructure 
projects may 1 day no longer be subject to the seemingly never-
ending cycle of lawsuits project opponents advocate. The new 
process is working, not only to the benefit of the construction 
industry but also to the Nation at large.
    However, as with any program or agency, there is always 
room for improvement and innovation. I commend you on your 
continued efforts to address this critical work in improving 
the permitting process with your introduction of S. 3017, the 
Federal Permitting Reform and Jobs Act.
    I must also acknowledge the Trump Administration's efforts 
to help alleviate some of the logjams in the permitting system 
as a whole. We have supported the thoughtful steps they have 
taken to reform the system while maintaining the underlying 
regulations that protect the health and safety of our members 
on the jobsite and the environmental and human impacts of 
projects on communities across the country.
    I know there has been much confusion on the issue of 
permitting reform versus regulatory reform, and it is important 
to note that while permitting and regulations are intertwined, 
they are still exclusive of one another. We can reform the 
permitting process without sacrificing the integrity of the 
underlying regulations, and we have testified before the Senate 
on this point. I will be very clear: North America's Building 
Trades Union supports responsible regulations that protect the 
environment, public health, and worker safety. We believe these 
regulations are critical to responsible infrastructure 
development that lasts for decades and allows for future 
generations to use these invaluable assets.
    What we are opposed to is the lack of certainty and 
transparency in the process and the unnecessary delay and 
redundancy in the permitting process. These unnecessary 
barriers, coupled with the constant stream of endless lawsuits 
that project opponents rely upon because they cannot defeat a 
project on the merits of the project itself, leads to a loss of 
investment and job opportunities. When projects are tied up in 
the courts our members are not working, they are not putting 
food on the table, and they are not providing for their 
families.
    North America's Building Trades Union strongly supported 
the FAST-41 reforms because they lead us toward a path of 
standardization and finality in the permitting process. That 
pathway has created a floor on which future streamlining 
efforts can build upon. But more must be done, and we are 
committed to advancing practical, bipartisan solutions to 
further improve this process. We welcome collaboration from all 
interested parties who are serious about advancing this issue. 
Thank you.
    Senator Portman. Thank you, Mr. McGarvey.
    And now a co-sponsor of FAST-41, former Senator Mary 
Landrieu.

  TESTIMONY OF THE HONORABLE MARY L. LANDRIEU, SENIOR POLICY 
    ADVISOR, VAN NESS FELDMAN, LLP; ACCOMPANIED BY MEGAN K. 
   TERRELL, LEGAL ADVISOR, COASTAL ACTIVITIES, ENVIRONMENT & 
     NATURAL RESOURCES OFFICE OF THE GOVERNOR OF LOUISIANA

    Senator Landrieu. Thank you, Senator Portman and Senator 
McCaskill. It is wonderful to be here with you again, working 
on some very important legislation and thoughts. I want to 
commend you both for your steadfast commitment to this issue 
and working closely together to build a bipartisan solution, 
which many of the colleagues, or those testifying today have 
mentioned, because without bipartisan support, what we are 
suggesting may not move forward.
    Both of you are so wise to understand that you could talk 
all day about infrastructure and the need to provide more 
infrastructure for our Nation, but if this process is not fixed 
or focused or made better, it would really be not worth 
speaking about, because there is such a gap between what our 
aspirations are and what is actually possible in processing 
these many projects.
    I am here representing Van Ness Feldman, an entity that 
represents many clients, but today I was asked to speak in my 
role representing the Louisiana Coastal Protection and 
Restoration Authority (CPRA). It is a $1.3 billion project, 
which is one of the largest on the dashboard. It has actually 
been mentioned in the testimony of those before me. Unlike 
other projects that are struggling to find the funding, Senator 
McCaskill and Senator Portman, we have our funding. We have the 
plan to restore our wetlands. It is one of the largest wetlands 
restoration projects underway in the Nation. The funding will 
come from a variety of sources. There is some Natural Resource 
Damage Assessment (NRDA) funding that must be approved but it 
is basically designated. We are not one of the projects that 
Christy might have mentioned, that are waiting for funding, so 
there is no reason to speed us up because we do not have the 
money.
    We actually have the money, and we have the scientific 
plan. We have a master plan for restoring Louisiana's coast 
that, Senator McCaskill, you and Senator Portman are somewhat 
familiar with because you have been very helpful. That was 
passed unanimously by our legislature. That, amazingly, through 
Republican and Democratic Governors has been supported. That is 
uniformly supported by our environmental community.
    We have our scientific plan, we have our political 
blessing, if you will, but we are struggling to get our 
permits.
    When we first started this project, Senator McCaskill, 
representing this client, the Corps of Engineers told us, in a 
calm voice, that it would take us 10 years--10--to get our 
permit. Now this is after you passed the FAST Act. And so we 
would respond to them, ``Have you read about the FAST Act?'' 
``Oh, yes. We have read about it but we really do not, you 
know, have to, like, pay a lot of attention to it.'' I said, 
``Well, I think you might want to pay attention to it, because 
it says that you have got to go fast, and 10 years is not 
fast.''
    Then they thought they were doing us a big favor by coming 
back about a year later. Megan will tell you the details--and 
said, ``Oh, we have figured this out. We have figured out how 
to take it down to 6 years.'' We said, ``Six years is still too 
long.''
    We have lost 1,800 square miles of coastline since 1932. We 
lose a football field of land every hour. Louisiana is in a 
race against time to restore our wetlands, so while I most 
certainly respect all of the projects that are on FAST-41--
building highways, building airports, to our trade unions--this 
is really important. These are not just any jobs. These are 
well-paying jobs that keep a lot of people employed. But our 
project is a coastal restoration project with its own money. 
Its sole purpose is restoring the environment, whole-scale 
restoring of the environment, building this marsh. And they are 
saying to us, ``You have to wait 10 years.'' ``You have to wait 
six.''
    I was proud, in representing our client, to lead an effort, 
and the team is here, to work the first MOU, Senator McCaskill 
and Senator Portman, under your law. Using your law as the 
guideline, we worked the first MOU to bring clarity, 
transparency, a 2-year aspirational goal--and I understand you 
may not want to put 2 years in the law but it sure sounds good 
to people trying to build projects. It sounds better than 10. 
Now whether you put it in the law or not, but a 2-year goal for 
these projects, transparency, etc., is so helpful.
    I am going to turn in the rest of my statement for the 
record\1\ and turn it over to Megan. But the MOU that we 
established, I am turning in as a part of the record.\2\ 
Hopefully it can serve as a 
template. I generally support the goals of the enhancements to 
the FAST Act, and do believe, as Senator McCaskill said, that 
having--and both of you--a permanent director, a budget, a 
staff to give some strength to what you all are trying to do.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Landrieu appears in the 
Appendix on page 56.
    \2\ The MOU referenced by Senator Landrieu appears in the Appendix 
on page 93.
---------------------------------------------------------------------------
    But thank you for continuing your focus on this, because 
the work is not done, and there are billions and billions of 
dollars of projects that could be built. Many have their own 
funding. Many have their own capital that need not 10 years or 
6 years, but need more reasonable timelines.
    Thank you so much and I will turn it over to Megan Terrell.
    Senator Portman. Well, thank you, Senator Landrieu, and, 
Ms. Terrell, would you like to speak now or be available to 
answer questions, because Senator Landrieu, even though she is 
no longer a Senator, has learned how to use all of her time.
    Senator Landrieu. Oh, I am sorry. Was I supposed to save my 
time? I did not know.
    Senator Portman. No. We are going to have Megan there for 
questions.
    Senator Landrieu. OK. Do the questions.
    Ms. Terrell. No, that is fine. I am happy to answer any 
project-specific questions.
    Senator Portman. That is great. We are going to have some 
for you.
    Ms. Terrell. Great.
    Senator Portman. Ms. Thompson.

 TESTIMONY OF JOLENE S. THOMPSON,\1\ EXECUTIVE VICE PRESIDENT, 
MEMBER SERVICES AND EXTERNAL AFFAIRS, AMERICAN MUNICIPAL POWER, 
                              INC.

    Ms. Thompson. Thank you, Chairman Portman and Senator 
McCaskill. I am pleased to have the opportunity to participate 
in this Roundtable and discuss our experience with the FAST-41 
process.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Thompson appears in the Appendix 
on page 59.
---------------------------------------------------------------------------
    AMP is a nonprofit, wholesale power supplier and services 
provider for 135 municipal electric systems across nine States, 
including Ohio, which is where we are based. We have a diverse 
generation portfolio that includes fossil resources and 
renewable resources.
    We have a unique experience with permitting and 
infrastructure processes as we recently completed the largest 
development of new run-of-the-river hydropower generation in 
the United States. We built four projects at the same time, 
along the Ohio River, at existing Army Corps dams. These 
represent more than 300 megawatts of new emissions-free, long-
life generation and a $2.6 billion investment.
    I want to express our sincere appreciate to Senator Portman 
for his support of our projects as well as his leadership in 
pursuing balanced permitting reform. As he indicated, this 
process started with our telling him the tales of woe that we 
went through in all of our permitting processes with the four 
projects that we were doing.
    Last fall, our CEO testified before this group about the 
importance of reasonable and cost-effective permitting 
processes. He talked about the project that we still have 
remaining--the R.C. Byrd project, which would be a 48-megawatt 
facility located in Ohio at an existing Army Corps dam. The 
Byrd project is one of the 34 projects in the initial FAST-41 
inventory.
    We understand the need to balance environmental protection 
with development. However, the distinct Federal Energy 
Regulatory Commission (FERC) licensing and then Army Corp and 
resource agency permitting processes for hydropower are 
especially arduous, often duplicative, and typically take more 
than a decade.
    Licensing for the Byrd project began in April 2007, 
obviously predating the effort on FAST-41. We received our 
license a decade later, in August 2017. We believe if the FAST-
41 process had existed earlier this would have moved much more 
quickly. Today our economic commitment to the Byrd project 
exceeds $4 million with permitting remaining.
    To tie this into the FAST-41 process, let us back up to 
July 2014, when FERC issued its draft environmental assessment 
for the Byrd project. A stalemate developed with AMP and FERC 
on one hand, and the Army Corps and Fish and Wildlife on the 
other, regarding a disagreement about the timing of the 
modeling study, a study which would cost up to $2 million.
    We were asked to complete the full study prior to receiving 
the FERC license. We agreed to perform the study post-license 
but were unwilling to do so pre-license as that would have 
placed the study cost at risk if the project did not move 
forward. We spent much of 2016 gathering additional information 
in an attempt to address this issue with the resource agencies.
    Concurrent with this stalemate, our experience with the 
FAST-41 process began in September 2016. We had conference 
calls with the Permitting Council staff to discuss the 
hydropower approval process and the challenges we were facing 
with our project. In June 2017, FERC and Fish and Wildlife 
finally reached concurrence on the issue at hand, and Fish and 
Wildlife issued their biological opinion. This broke the logjam 
and FERC subsequently issued the license a few months later. We 
attribute this movement to the visibility that the Byrd project 
received as a result of being included in the FAST-41 
inventory.
    We are now at a juncture where we are experiencing a 
Catch-22 involving the staging of the conditions contained in 
the FERC license with other requirements and deadlines. One 
condition in the license requires us to reach an agreement with 
the Army Corps to coordinate plans for construction site 
access. Importantly, other separate license obligations are 
contingent upon completion of this agreement. For instance, we 
cannot begin certain modeling prior to completion of the 
agreement because we are not permitted to begin the core 
drilling absent the agreement. Without the core drilling, 
powerhouse locations cannot be determined. Without powerhouse 
locations, certain studies would be premature.
    We drafted the agreement and sent it to the Army Corps for 
their review in October 2017. They sent their proposed changes 
back this month and we are reviewing those. The fact that the 
FERC license conditions do not marry up to the Army Corps 
agreement results in a schedule that can be illogical, at best.
    My point in describing this post-licensing situation is to 
highlight the importance for hydropower projects of continuing 
the Permitting Council process post-licensing into the 
permitting phase.
    From our experience, FAST-41 has been successful in 
improving the transparency of the Federal environmental review 
and authorization process for covered projects. Concurrent 
reviews, lead agencies, firm deadlines, and a top-down approach 
are very important steps in improvements to the permitting 
process.
    The permitting dashboard can identify delays caused by 
intra- and inter-agency disputes, which can help facilitate 
resolutions. However, State agencies are not currently 
participants and they do play a critical role in the approval 
process for many projects.
    We recommend providing the appropriate resource commitments 
for the Steering Council and broadening the scope of the 
Council process to ensure that there is an ability for full 
resolution of disputes that can exist between State and Federal 
agencies, as well as between developers and agencies.
    Thank you for providing us with the opportunity to appear 
before you today and for your work on this important topic. We 
appreciate the R.C. Byrd project having been included in the 
initial inventory and we view the FAST-41 process as an 
important tool in balanced permitting reform and infrastructure 
development.
    Senator Portman. Thank you so much. Ms. Thompson, the 
testimony this afternoon has been very helpful because it gives 
us a lot to chew on, a lot to talk about, and I look forward to 
getting into questions.
    I am going to ask Senator McCaskill if she is interested in 
going first. She is the Ranking Member of the full Committee 
and I know she has to get to another commitment shortly, so I 
want to have her have the chance to ask questions and we will 
get into a little dialogue here.
    By the way, this is not a hearing in the sense that if you 
have something important to say, speak up. I promise not to 
wield the gavel too much, and let us have a dialogue. Senator 
McCaskill.
    Senator McCaskill. Let me start with FERC. The AMP 
hydropower project is a perfect example of how frustrating it 
is when FERC and the Army Corps do not talk to each other and 
require duplicative information. The whole point was to get 
agencies to work together.
    I understand that FERC has resisted in participating in the 
development of the initial timeline, saying that they are an 
independent agency. Can you address this, Ms. Colamaria, and is 
there something we can do in the new legislation that would--
other than a two-by-four--that would convince FERC that whether 
it is the Army Corps or FERC, they all need to play nicely 
within this law. Can you speak to that? Is this accurate, that 
FERC is pretending as if they do not have to participate?
    Ms. Colamaria. I would just say, both with FERC and the 
Nuclear Regulatory Commission (NRC), the two independent 
agencies we have on the Council, they are actively 
participating in the implementation of FAST-41 now. They 
participate regularly in the working group and, as you know, 
FERC has many of our current FAST-41 projects on the dashboard. 
They are the lead agency.
    There are statutory limitations to some of the things that 
they can and cannot do, ex parte communications, for example, 
which we are working with FERC environmental staff, licensing 
staff, and their General Counsel (GC) to think of creative ways 
to move forward so that they can still continue their 
coordinating roles with the agencies and use all the FAST-41 
tools while still maintaining their independent agency status.
    Senator McCaskill. Well, I think it would be helpful for us 
if there is language----
    Senator Portman. Yes.
    Senator McCaskill [continuing]. That would clear this up 
and that would be more directive and not discretionary. If you 
could share that with us I think what we need to do is make 
sure we draw this legislation as cleanly and tightly as 
possible. Because it does not do us any good, if we get 
everybody working except one.
    Ms. Colamaria. Right.
    Senator McCaskill. I mean, it is like you, Mary, and the 
Army Corps.
    Ms. Colamaria. Exactly.
    Senator McCaskill. Everybody is working well but if the 
Army Corps thinks that somehow they are outside of this, then 
the whole thing falls apart.
    Senator Landrieu. Senator, I would like to just jump in and 
add to what has been said. Our office is actually an expert on 
FERC. It is not work that I do personally but I am very proud 
that Van Ness Feldman has one of the largest FERC practices. If 
you do not mind, I would like to submit that question, if the 
record stays open, and we could provide probably several----
    Senator McCaskill. That would be great.
    Senator Landrieu [continuing]. Ideas to the Committee, if 
you would accept it, and we could provide it within, what, 48 
hours or a few days?
    Senator Portman. Yes. That would be great. We had a hearing 
on the Energy and Natural Resources Committee last week where 
we had the FERC Chairman--actually, we had all the 
commissioners there, which is, if not the first time it has 
ever happened, it is unusual--and I asked him this very 
question, as you probably know. I talked to him about the 
Council, asked him why they were not posting on the dashboard. 
And I asked him to get back to us on it because he was not 
aware of the issue.
    But the point is, to Senator McCaskill's question 
specifically, are the Nuclear Regulatory Commission and FERC 
actually posting on your dashboards, or not? Are they posting 
their information and their deadlines?
    Ms. Colamaria. They are posting some of their milestones, 
but they still do believe they have some limitations on the way 
that it is posted, and so that is an example of----
    Senator Portman. And they said those are legal limitations, 
right?
    Ms. Colamaria. What was that?
    Senator Portman. They say those are legal limitations.
    Ms. Colamaria. Correct.
    Senator Portman. Even statutory limitations? OK. We should 
take a look at that.
    Senator McCaskill. We can fix that.
    Senator Portman. Yes.
    Senator McCaskill. We can write that law. We can change 
that legal problem.
    Senator Landrieu. Amen.
    Senator McCaskill. I know we have some disagreements about 
whether or not we do the sunset or do not do the sunset. I have 
to go to another hearing, because I am Ranking Member and it 
has to do with all the stress and conflict we have around the 
border right now, and I need to go down there to that. But I 
want to ask you Sean--it is so important in this era that we 
listen to workers and that we pay attention to the workers. I 
want to make sure from the perspective of your membership, if 
there is anything that we need to put in the legislation that 
would be helpful.
    I know getting these jobs ready to go faster, making them 
so that your folks can get to work in a more quick and 
efficient way matters, but if there is anything else I sure 
would like to have your input as it relates to our improvements 
to FAST-41.
    Mr. McGarvey. Well, I appreciate that, Senator. And, we are 
not only interested in expediting the permitting timeframe to 
more quickly deploy men and women that we represent onto those 
projects, but also we are running about 140 apprenticeship 
residence centers across the United States, one in Columbus, 
Ohio; Cleveland; one in St. Louis; Kansas City, where we are 
taking 
communities that have not had a lot of opportunity in their 
lifetime--communities of color, women, veterans--and using 
these infrastructure projects as their entryway into 
apprenticeship and on to the middle class, once they learn the 
skills sets. The more quickly we can go, the more people we can 
help.
    On top of that, over the next 10 years, we are going to 
move about $70 billion of our pension money out of other 
investments into alternatives in infrastructure and commercial 
real estate. So, like the Hair Club for Men, we are not just a 
client; we are an owner. When we are investing our dollars, it 
is important to us too.
    Senator McCaskill. I am not going to say anything about the 
Hair Club for Men. [Laughter.]
    You gave me an opening there that a Mack truck could drive 
through, Sean, but I am not going to say anything.
    Mr. McGarvey. You are correct. But there is a second 
opportunity for us, not only to get good help invested in the 
Nation's infrastructure, also to get good returns for our 
pension funds that need them, but to create the jobs. With all 
the uncertainty and unpredictability, in the years that I have 
been working now at the C-suite level, with people who are 
investing hundreds of billions of dollars in gas and oil, 
petrochem, public and private other types of infrastructure, 
this predictability is the whole thing when it comes to the 
financing. The banks on Wall Street and others that are putting 
up a lot of this money, they cannot be in a position where they 
do not know when they are going to start to get the return on 
investment (ROI) on the investment, and as pension fund 
investors we are the same way.
    Again, if we could ever get to that magic 2-year where we 
knew, from start to finish, in 2 years we were going to know 
whether we were going or not, that would change the whole 
ballgame, I think. And not sun setting the bills. The other 
thing.
    Senator McCaskill. Let us go to that, because this is in 
the predictability place, and this will be my last question. 
You raised concerns about removing the sunset, Ms. Goldfuss. I 
just think that this predictability, if people think it might 
go away, then all of a sudden all of the speed that they had 
gained they think could dissolve, and not that our government 
is not totally predictable and stable and functioning smoothly. 
I am not being partisan there. We have the same problem. I 
mean, this is a door that swings both ways.
    Do you see that removing the sunset has some advantages as 
it relates to predictability?
    Ms. Goldfuss. Yes, and just to clarify, I think for the 
portions of the law that we know are working--so the dashboard 
and the Council and the pieces that we see are demonstrating 
success--putting the sunset in place makes perfect sense. But 
we have not had the law long enough for specifically the 
judicial review pieces.
    The only recommendation I would make there is look at--is 
there a point in time that Congress could come back to some of 
the untested provisions of the law and see whether or not they 
are working. The sunset gives you that opening to maybe extend 
it several years and come back and look at the judicial review, 
or some other version of that, where you would check in.
    Senator McCaskill. So your objection to removing the sunset 
is about the untested parts dealing with the judicial review 
that we really have not----
    Ms. Goldfuss. Right. We have not determined whether or not 
they work. Correct.
    Senator McCaskill. That makes sense. Thank you all very 
much. Thank you.
    Senator Portman. Thanks, Senator McCaskill. We are joined 
by Senator Harris, and feel free to jump in at any time you 
would like. Senator McCaskill went first because she has to 
head down to another committee hearing.
    But again, there is so much to talk about here, and I 
thought, Mr. McGarvey, you pretty well summarized where we are 
in terms of the problem. The problem is we all want more 
infrastructure and we need it badly, and relative to other 
developed countries, we have a real gap in our infrastructure, 
across the board. Certainly that includes energy projects, as 
we heard about and environmental restoration projects, but also 
roads and bridges, ports, and things that directly affect the 
economic development of our country.
    So this helps a little bit. We have seen the billion 
dollars in savings already. It is awesome. The question is, 
what can we do to make it work better? I wanted to ask a couple 
of questions.
    First, to Ms. Colamaria, I know that you are in sort of an 
awkward position because we are talking about your Council and 
how it could work better, and you would be the last one to ask 
for more money for yourself, I am sure. Maybe not. But looking 
at what you have been able to do with $4 million over this 
period of time, saving about $1 billion, what could you do with 
$10 million? What could you do with $15 million? What would you 
do if you could get a higher appropriation?
    Ms. Colamaria. Before I answer that I just want to clarify 
something that Senator McCaskill said. Our budget through 
appropriations this year was $1 million, but that was 
significantly lower than what was requested by the President's 
Fiscal Year budget. We did request $10 million and we were 
given $1 million. This year we requested $6.07 million and that 
is currently in both the House and Senate appropriations bills.
    As you alluded to, we are kind of skating by on a skeleton 
budget right now, but we have been able to accomplish some 
significant successes. But I do think that to fully realize the 
potential of FAST-41, to create that sea change across all 
agencies, we really are going to need the full budget in order 
to really spend the time on each project that we do, 
shepherding each project through the process, having the one-
stop-shop service for project sponsors, and then also just 
creating all the tools that the agencies will need in order to 
make their internal process and their intra-agency processes 
more efficient as well, including the GIS tools, making the 
dashboard more of a tool as opposed to a reporting function, 
that type of thing.
    Senator Portman. Let me just be specific. You talked about 
$6 million, roughly, in the budgets this year. Neither of those 
bills have been voted on yet but we are hoping that those bills 
and others will come to the floor. Would that be adequate for 
what you are currently experiencing--the number of projects on 
the dashboard, the amount of staff you need, the amount of 
tools you need, money you need to have the tools to help these 
agencies and departments? Mr. Herrgott, jump in here too, 
because I know you are very involved with this.
    Mr. Herrgott. She is doing a great job.
    Ms. Colamaria. I think given the current project workload, 
that is an adequate amount, given the fact that we are also 
planning on issuing fee regulations to further enhance our 
budget and to help both in terms of the operating costs for the 
Office of the Executive Director, as well as the cost to the 
agencies, for implementing FAST-41.
    Mr. Herrgott. I would just like to point out it is 
important to focus on making sure that the Permitting Council 
is adequately funded, but as you know from your experience in 
performance management at OMB, the problem that we are dealing 
with is fierce. We have a legacy, paper-based system that was 
developed before the Internet, in a way in which we have 59 
statutes and up to 14 agencies that oftentimes do not have a 
central repository for data. It is not just enough to create a 
dashboard and then to appoint a permanent executive director to 
make the systemic cultural changes within agencies.
    Just the way they talk to each other--and this is not a 
Republican or Democrat issue. This really is a process 
redesign. And to comments about One Federal Decision or the 
Permitting Council somehow eroding environmental protections or 
pushing too 
far--that would be an inaccurate assessment, because what we 
are really doing is taking a hard look at how agencies get to a 
decision. Not to a yes but to a decision, using the best 
available data. Although folks have talked about resources 
within the agencies, the important thing here is we do not have 
a central repository for data on where the resource constraints 
are.
    Part of the accountability system that is tied to FAST-41, 
and to One Federal Decision, is for the first time ever to ask 
agencies where the resources actually are, where they are being 
used, so we can pinpoint and target where the resources are. 
Throwing money at the agencies is not the problem. What we need 
to figure out is where they actually are.
    So that is why, on April 9th of this year, we had 11 
Federal agencies and the Permitting Council sign the MOU, 
including FERC, which binds them to do things that are 
consistent with the spirit of FAST-41. I would argue that they 
both work hand-in-hand. You need FAST-41 as a project-by-
project tool to adjudicate project disputes and to change the 
way we do business. But you also need One Federal Decision 
across all Federal agencies, the entire Federal family, to do 
things a little bit differently, and you need them to work 
together or else we cannot achieve the coordinated project plan 
and the timelines that are in FAST-41.
    Yes, it is important that we address the adequate funding, 
but we also need the MOU, which is being implemented now, to 
take root, so that it can further support the FAST-41 
successes.
    Senator Landrieu. Senator Portman, could Megan just say 30 
second on this, because it is so important.
    Senator Portman. Absolutely. I was going to get down to 
your project next. I am really impressed that so many people 
know how to pronounce Mid-Barataria too. Everybody on the panel 
has said that word one time today, except you.
    Senator Landrieu. They know this project. They have heard a 
lot about this project.
    Senator Portman. Probably America's biggest environmental 
restoration project right now. Right?
    Senator Landrieu. Yes, it is. Go ahead, Megan.
    Senator Portman. What is your sense? How is it working?
    Ms. Terrell. I think the process right now has worked 
really well. The MOU that we entered into with the United 
States and the Federal cooperating agencies and the Corps as 
the lead agency I think was really the trigger to really speed 
things up for our project. It is one of the Coastal Protection 
and Restoration Authority's five cornerstone projects in the 
State of Louisiana, and right now is going through the 
permitting process. As Senator Landrieu mentioned, it started 
off as a 10-year process, and then after the project got put on 
the dashboard in January 2017, the new Coordinator Project Plan 
was issued with about a 6-year project timeline.
    Shortly thereafter, there were several months of 
negotiations, but in early January of this year we entered into 
that milestone MOU, and that has really been the impetus to see 
the changes. We being the State of Louisiana, I think one of 
the key pieces that helped us, as part of the MOU, was allowing 
the State, as a project sponsor, to have more participation in 
the process. Where that led to was the State working directly 
with the Corps but also the other Federal cooperating agencies. 
We had a whole framework development team, multiple calls, 
where we sat down and really talked about this is the timeframe 
within which the modeling is going to take place, this is the 
timeframe that we can accomplish and working through each stage 
of the EIS process.
    Through that, that is where we were really able to create 
the efficiencies. It was through increased coordination and 
increased communication between the State, the Federal 
cooperating agencies, and the lead agency. The agencies also 
dedicated necessary staff and resources to the project that may 
not have been there before.
    One of the other extremely helpful things was to have 
executive staff in the room. We have Colonel Clancy, who is the 
commander and District Engineer of the New Orleans District and 
who was directly involved in the process, checking in and that 
ensures that his staff and his personnel are focused on the 
project, but also ensures that it remains a priority. That has 
been extremely helpful.
    Senator Portman. Do you feel like the Corps feels 
accountability for the performance of the other agencies?
    Ms. Terrell. They do.
    Senator Portman. That is the idea, to have one agency in 
charge.
    Ms. Terrell. The lead agency in charge definitely helps. We 
have monthly meetings and the Corps is constantly keeping not 
only CPRA as the project sponsor but also the other cooperating 
agencies on task, and asking where we are in the timeline, and 
are we going to meet our milestone goals. I think that has been 
extremely helpful.
    I think having that goal of a 2-year permitting timeline 
has also been extremely helpful. I am acting as sort of a 
project manager for the environmental and permitting for this 
project, but I started off my career as an attorney, still am. 
But we all know, as an attorney, if you have a brief deadline, 
for example, you are going to make sure you do the prep work 
and make sure you get that filed on time. That is why I really 
think having a 2-year timeframe and a goal in mind helps keep 
people focus on the job at hand. It helps with early 
identification of issues that may result in delay down the 
road, and then you can enter into these dispute resolution 
processes, which we have, as part of our MOU, and that has been 
extremely helpful.
    Senator Landrieu. But that MOU would not have been possible 
without Alex and without the Federal push coming down to tell 
them, ``You must work together,'' and maybe we need stronger. 
But your team up here, Senator Portman, was terrific, because 
they would not be listening if it was not be coming from the 
top.
    Senator Portman. By the way, the 2-year goal is that it is 
a goal. As I said earlier, if agencies cannot meet that goal 
for some reason, they have to explain why, and how they are 
going to try to meet it. That is what we are doing here. To the 
point earlier from Ms. Goldfuss, which I get, sometimes there 
are going to be situations that are out of the control of the 
agency. Something happens. But having that goal, as Mr. 
McGarvey said, is so critical.
    I want to give Senator Harris a chance to jump in here, if 
she is interested, and I appreciate you coming.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. I appreciate you. Thank you.
    Ms. Colamaria, you are probably familiar with what happened 
back in October in California. PG&E, electric transmission 
lines, there was failure and it resulted in the death of 18 
people and 12 wildfires. At least Cal Fire estimates that the 
causal connection included the 12 wildfires that we 
experienced, that devastated communities.
    Tell me how FAST-41 is addressing, in particular, the 
safety concerns that we have around electrical transmission 
wiring. Certainly the efficiency and speed is important, but 
also safety. Can you talk to me a little bit about that?
    Ms. Colamaria. Well, I can get back to you on any 
specifics, if there are any of our projects that are 
specifically dealing with that issue. I do not know off the top 
of my head if there are.
    FAST-41, the purpose of it is to improve the Federal 
permitting process for environmental reviews and 
authorizations. Those are typically more environmentally 
related authorizations, but there are some that also bring in 
safety concerns as well. The purpose is to ensure all the 
agencies that have some role in that project are coordinating 
and are talking and are identifying potential issues, possibly 
a safety issue that would come up later on in the process, 
identifying it earlier on so you can address it throughout the 
process, and making sure that all of those potential dangers 
are identified so they can be addressed as the project 
approval, or not approval, goes forward.
    Senator Harris. OK. If you could follow up with me that 
would be great. Thank you.
    Senator Portman. How many projects are on the dashboard 
right now?
    Ms. Colamaria. There are 38 projects right now on the 
dashboard. Sixteen have completed their Federal environmental 
reviews and authorizations. Seventeen are in progress. One is 
planned. Additionally, two projects are paused at this time, 
due to project sponsor financial concerns, and two projects 
were canceled by the project sponsor, due to economic 
considerations, and then the need to determine the need for the 
project.
    Senator Portman. How many have applied to be covered?
    Ms. Colamaria. We have had six new projects to apply to 
become covered projects under FAST-41. Five of them were 
determined to be covered projects. One was rejected because it 
was not one of the covered sectors under FAST-41.
    Senator Portman. OK. Have you looked at our new legislation 
on the additional coverages on some specific areas?
    Ms. Colamaria. I am aware of the legislation. As you know, 
because the Administration has not taken a position on the 
bill, I cannot comment on any specific legislation. But I will 
say a lot of the issues addressed in the bill are issues we 
have seen come up during implementation.
    Senator Portman. We will just take Mr. McGarvey's word for 
it. He thinks it is good, to cover more, right, more covered 
projects. There are just some silly, I think, carve-outs that 
do not make sense, in terms of what is covered and what is not 
covered. There is not a big expansion because most things were 
covered.
    On the issue of you and your people being able to help give 
advice or consultation to non-covered projects, have you looked 
at that part of the legislation? I am not trying to put you on 
the spot here. That is a part of the bill that came out of some 
of the concerns that we heard from your folks.
    Ms. Colamaria. I am aware that it is in the bill. I will 
say, though, in the 13807 Executive Order we do cover that 
issue and it does allow, under the Executive Order, the 
executive director to help out on projects that are not FAST-41 
covered projects.
    Senator Portman. OK. Good.
    Ms. Colamaria. We are supportive of that, obviously.
    Senator Portman. Yes. Good.
    Senator Landrieu. Can I jump in to add to that?
    Senator Portman. Yes, please.
    Senator Landrieu. On behalf of our client, we would support 
a broadening of the coverage, but as long as it does not dilute 
the focus on the large projects that are on the dashboard. So, 
of course, we would love to try to expedite as many projects 
across the country, Senator, as we can, but there are really 
significant projects that are on this dashboard. We have $1 
million and no executive director, as we sit here today. So 
there are some really important steps that a permanent 
executive director, a good, solid budget, and continued 
coordination and transparency would be extremely helpful.
    Senator Portman. Yes.
    Ms. Colamaria. Can I respond to that, just quickly?
    Senator Portman. Of course.
    Ms. Colamaria. I think that you might have noticed that I 
qualified my $6.07 million number as sufficient for the current 
set of projects, but, yes, if we do expand, and we are starting 
to increase our marketing and letting more project sponsors 
know about the benefits of FAST-41. As we do start to 
significantly expand the number of covered projects we would 
need more money, exactly for that reason. We do not want to 
dilute the services we are providing.
    Senator Portman. We wanted to start off with some projects 
like Mid-Barataria that would be successful, and thanks to your 
hard work, all of you, it is moving along. I would still like 
to shorten the time, as Mr. Terrell said. But, as we have 
successes and build on that foundation, obviously the idea is 
to give you the opportunity to take on more, and I was 
interested to see how many projects have applied. I would like 
to see more, but we need the resources to make it work. And to 
both of you, Mr. Herrgott and to you, Ms. Colamaria, I think 
the executive director of permanence would be really helpful 
for everybody. I am not going to put you on the spot to ask you 
why we do not have one yet, but I have asked others, including 
some of the senior officials in the Administration, and they 
all indicate that they are moving toward that. So I would hope 
that that is true.
    Mr. Johnson, you have not had a chance to speak up much 
since your good testimony, but what do you think the top 
priorities are going forward, and what should we be doing? I 
know you said you strongly support the new legislation. What 
should our emphasis be in that and what is the most important 
thing going forward?
    Mr. Johnson. Absolutely. We have already talked about a lot 
of the most important things. I think one thing to keep in mind 
is the entire permitting process, with all the interagency 
coordination that is required, is a complicated problem to 
solve. We are only roughly 2\1/2\ years into implementation of 
the Steering Council and getting FAST-41 underway. They have 
made remarkable progress in that time. But we are just 
beginning to see the payoff from that, in terms of measurables, 
metrics that we can actually use to look at the success of the 
project.
    I think one of the things that would help, moving forward, 
is to increase the number and diversity of projects, to make 
sure that we get a better data set, more information in terms 
of how useful this is, and make sure that we have a lot of 
coverage in how we can explain what this does to the process, 
and to show what this does to the process.
    Furthermore, I think it is absolutely critical that we 
remove the sunset provision to ensure that we can do that in a 
timely way and we can do that in a way that continues forward. 
Seven years is just too short to make sure that we get this 
fully implemented, that we have success stories, and that we 
could show that this process really works.
    And then, like I said, to build on top of it, to continue 
the process forward. I think Alex was talking about the 
complexity of the system and the problems that we have with 
paperwork and inconsistencies across agencies. These are 
problems that can be solved without any kind of substantive 
change in the statutes that require environmental review, or 
that require environmental review for permitting. We can 
actually not change the way we do anything but still improve 
and speed up the process, make it more transparent and better, 
simply by fixing the bureaucratic overhang that happens because 
of all of the inefficiencies in the system.
    The more we can do that and the more projects we can do 
that on, I think the better we will be in the long run and the 
better the position of the country will be, in terms of all of 
the things we have talked about--creating jobs, growing the 
economy, having more projects, and attracting more investment 
to these projects.
    Mr. Herrgott. One point on the judicial review section. It 
is worth pointing out that in MAP-21 and the FAST Act that 
those judicial reform remedies, that reduction in time, is 
already applicable to Section 139 of Title 23 and DOT projects. 
It is already internally consistent with other parts of the 
code. Data does exist that it does deliver projects faster, in 
a way in which projects otherwise would not go from red to 
green without those judicial reform sections. It would be an 
inaccurate assessment to say that the judicial reform sections 
in your bill are any different than other treatment that we 
have seen in something, that have been bipartisan bills that 
have passed through Congress.
    Senator Portman. That is a good point. By the way, more 
data and the ability to use the data, so it is not just having 
big data but to be able to put the analytics behind it so it 
makes sense, will help put the performance measures. Ms. 
Goldfuss, I think it also helps with some of your concerns, 
frankly, because the inefficiencies of the process do not lead 
to a better result.
    Ms. Goldfuss. I completely agree, and I think the tension 
of adding more projects versus having a bunch of proof points 
to show that this works is some of what Senator Landrieu 
pointed out. This is a new-ish process for government. 
Unfortunately, we would all like the timeline to go faster. The 
success that you have was with a shift in Administration, which 
we know also takes time as new people come in and learn what is 
happening.
    So I think----
    Senator Portman. By the way, can I interject there for just 
a moment? Thank you for your work at the end of the Obama 
Administration getting the Council going. I did not mean to 
be----
    Ms. Goldfuss. No.
    Senator Portman [continuing]. Ungrateful there, because I 
know there was lots of back-and-forth. The director and I were, 
as you know, in constant communication for a while there.
    Ms. Goldfuss. Constant.
    Senator Portman. You did get it set up and going, and our 
job is to push, push, push.
    Ms. Goldfuss. And show that it works. Barataria is a 
wonderful project but we need more of that. We need to show 
that this is what we learned, and have that data to see what is 
really holding it up.
    Senator Portman. I did not mean to interrupt you. Keep 
going, if you can remember your line of----
    Ms. Goldfuss. I just wanted to agree with Alex on that 
point about the data. We may not agree on everything but having 
data from the system, really the inefficiencies in the 
bureaucracy are overwhelming. PDFs, for example, in some 
places, people just refusing to return phone calls or emails. 
FPISC really has put a big, bright light on the fact that 
people have to work together, and forcing that and showing that 
it can work on projects and still have strong environmental 
outcomes will mean that it will benefit more projects in the 
long run.
    Senator Portman. Excellent. Anything else to add from the 
group? Ms. Thompson, you said you had a 10-year, as I heard you 
talking about the numbers, a 10-year permit in process, still, 
on your last hydropower plant. Is that right?
    Ms. Thompson. For the license for the project currently in 
the inventory it took 10 years to get the license. The license 
is the permission to start permitting, which will be another 
probably 4 to 5 years, at least. A part of that being the 
amount of studies that you have to do for a hydro project 
because you are affecting a Corps dam. So there has to be a 
number of structural studies and those sorts of things.
    I wanted to echo what I heard--I have heard the words 
``cultural change'' come up a couple of times and I just want 
to talk about how important that is. You are really trying to 
move some very entrenched bureaucracies, and ways of doing 
things that are not things that necessarily need to be changed 
in the statute. But this process can help encourage 
collaboration and shine a light on it.
    There are some things that just do not make sense in some 
of these processes and I think if that becomes apparent to the 
Permitting Council and there are other folks that are arbiters 
of the situation, that it could make some serious progress 
forward on certain things. Particularly you have some 
differences between the FERC and Corps, when we are dealing 
with our projects. Some things the Corps does are completely 
duplicitous of what we have already done in the FERC process. 
For instance, studies that after 5 years they will no longer 
accept a study. Once you have done the study and the licensing 
process, it is going to be expired, but it has already been 
done, but you redo the study, it is more cost for the 
developer. It is just more time and more delays.
    So cultural change, having the arbiter of someone looking 
at this and saying it does not make sense, is critically 
important.
    Senator Portman. That is why I think it is so important 
that the Council be permitted to consult on non-covered 
projects, because I think the effect of the Council is actually 
far more than $1 billion. I think it actually has changed the 
culture in some agencies and departments that do not have 
covered projects. I think that could happen even more if you 
all had the flexibility, and it sounds like you do under 
Executive Order already. But under statute to be encouraged to 
consult so that the cultural changes take place, not just with 
regard to a couple dozen covered projects but with regard to 
the agencies and departments, in general. That is kind of your 
job, to be the person who is trying to change a mindset and 
focus on results, jobs, and economic development.
    I think that is a really important point, and I am glad to 
hear you think there is some cultural shift going on in some of 
these agencies you are working with already, but it sounds like 
you could see a little more of it.
    Ms. Thompson. Yes, it could be a lot. There could be a lot 
more.
    Senator Portman. Yes.
    Senator Landrieu. There is a lot of room to avoid 
duplication.
    Senator, one other idea I will throw out, and I can follow 
up with the staff on this. But it occurred to me, sitting here, 
with the jurisdiction of Homeland Security, that the Committee 
is responsible for rebuilding cities, counties, and portions of 
States that are destroyed by disasters. Of course, I led a lot 
of that effort when I was here. It occurs to me that a special 
grouping of projects would be infrastructure projects that must 
be rebuilt quickly after a storm. I am not sure there is any 
special HOV lane for that. We should think about that.
    Because, remember, these projects, for instance the bridge 
over Lake Pontchartrain, that I-10 collapsed, it had already 
been permitted once. It was a fine bridge. It just was 
overwhelmed by the force. Why would you have to wait to go 
through X number of years to rebuild it?
    Projects like that could go on a fast track if it could 
quickly be determined that that bridge was, in fact, safe. It 
needs to be built to a higher standard, but if it is being 
built in the same footprint as the old bridge, why do you have 
to do a whole NEPA, because it is on the same footprint? Now if 
you are moving the bridge a mile away, over land that was never 
examined, then maybe so. But I have always argued, if you are 
building back on relatively the same footprint, why do you even 
need NEPA? You need a safety check. You need safety to make 
sure that the bridge you are building is stronger.
    We should think about that, a special category. It would be 
so helpful to mayors and Governors that are struggling right 
now in Houston to rebuild, and with all the problems, they do 
not need that. We should think about that. I do not know if you 
all have talked about that.
    Mr. Herrgott. We have talked about that extensively, and at 
its core what we were trying to do is realign everyone's 
definition of success, and it is building the project. And 
unfortunately, the very talented people that work within the 
agencies, we have failed them. We have not set them up for 
success because we have not given them a process to address 
what is behind me.
    [Points to chart.]
    That is systemic. We can work within existing statutes, and 
along with the Permitting Council, which is institutionalizing 
best practices which helped us to the logical outgrowth, which 
is One Federal Decision, to change the way in which agencies 
talk to each other, at the front of the process. To bring 
stakeholders in, not just for the opt-in projects of the 
Permitting Council, which is extremely important and it has 
changed the way in which we do business. For example, one 
example, we have the Department of Commerce National Marine 
Fisheries Service who will do an analysis on the Twin Span 
Bridge on salmon, because they are an ocean-faring fish. But 
yet the Fish and Wildlife Service is doing analysis on trout 
because they are river fish and under the jurisdiction of the 
Department of Interior.
    When we talk about resources, it is essential that we 
collaborate and coordinate to ensure that we harmonize those 
processes, because I do not know how to explain to a taxpayer 
in Nebraska that we wasted an additional $600,000 on two 
different biological opinions for something that easily could 
be done simultaneously and concurrently. That is what is 
essential, and that is the lessons learned from the Permitting 
Council, which we have taken to extend onto the rest of the 
Federal family. And I think the collaborative nature and the 
one-two punch are essentially what is going to help us really 
demonstrate what your vision was.
    Senator Portman. As you probably know, the Administration 
is proposing a reorganization of government right now, which 
every Administration does, and usually it does not fare very 
well up here because of the jurisdictional problems with our 
committees. One of the reorganization policies maybe comes from 
you guys, which is about fish, and it is about trying to have 
one agency be responsible for both the salmon and the trout, to 
use your example. That would reduce some of the duplication and 
some of the confusion that people have. I think it is 
important.
    By the way, you did help, when you were here, I think, on 
highway projects with regard to rebuilds, not having to go 
through such a laborious process. Correct? But it is a good 
point. It needs to be broadened beyond just that. I do not 
think it includes bridges, as an example. Highway projects and 
bridges. You may have done more than you thought while you were 
here.
    Senator Landrieu. Thank goodness I did something.
    Senator Portman. Yes, you did a lot.
    Senator Landrieu. At least I did one thing when I was here.
    Senator Portman. This has been very helpful, and needless 
to say we want to continue to hear from you. Some of you are 
going to send some things for the record of this particular 
meeting, and we will be sure and get those. But, in general, 
please keep working with us. We have, I would say, a 
nonpartisan approach to this, and in some regard we talked 
about it. It took us several years to just get this thing into 
legislation. Now, it has taken us a few years to get it up and 
going. I think there is an opportunity, with this additional 
legislation, which I view as common sense, really very modest 
changes. And I understand, Ms. Goldfuss, your concern about 
part of it with regard to the sunset not applying to every part 
of the new bill.
    But it is really important that we take the lessons we have 
learned and use it to make this even more streamlined, to use 
one of your favorite words. So continue to work with us please, 
our team. We want to move this forward with regard to new 
legislation, and we want to be sure you get your appropriations 
this year. We are going to weigh in on that on a bipartisan 
basis, and talk about the savings, and talk about the 
incredible return on investment this is for the taxpayer.
    Finally, there are 15 days that the record will be open, so 
this gives you not 2 years, but 15 days. To Ms. Terrell's point 
that lawyers have to get their briefs in, your briefs need to 
be in within 15 days, for the record. We really want to hear 
from you and continue to work with you.
    Thank you for being here today. Thanks for your service.
    Mr. McGarvey. I cannot share with Senator McCaskill, but I 
had a full head of hair when this process started. [Laughter.]
    [Whereupon, at 4 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------    
                              
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              





                                 <all>
</pre></body></html>
